LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

July 16, 2021

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

5614 Connecticut Avenue, NW #307
Washington, DC 20015

GLM DFW, INC. V. WINDSTREAM HOLDINGS, INC.

Dear Sir or Madam:
I hereby certify that at the request of Counsel for the Petitioner, on July 16,
2021, I caused service to be made pursuant to Rule 29 and the Temporary Order of
April 15, 2020, on the following Counsel for the Respondent:
RESPONDENT:
C. Harker Rhodes IV, Esq.
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, N.W.
Washington, D.C. 20004
202-389-5099
harker.rhodes@kirkland.com
This service was effected by depositing one copy of a Petition for a Writ of
Certiorari in an official “first class mail” receptacle of the United States Post Office as
well as by transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 16th day of July 2021.

